                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AGREED-UPON PROCEDURES OF CORPORATION FOR
       NATIONAL AND COMMUNITY SERVICE GRANTS
    AWARDED TO THE VIRGINIA OFFICE ON VOLUNTEERISM
               AND COMMUNITY SERVICE

                        OIG REPORT 11-14




                         Prepared by:

                    Reed & Associates
              8700 Centreville Road, Suite 203
                   Manassas, VA 2011




This report was issued to Corporation management on May 23, 2011. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
November 22, 2011 and complete its corrective actions by May 22, 2012.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                    NATIONAL
                                    COMMUNITY
                                             &
                                    SERVICEtt.te
                           OFFICE OF INSPECTOR GENERAL

                                         May 23,2011


TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld    ~A~
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-14, Agreed-Upon Procedures Review of Corporation Grants
               Awarded to the Virginia Office on Volunteerism and Community Service (VA
               Commission)

Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Reed and
Associates. The contract required Reed & Associates to conduct its review in accordance with
generally accepted government auditing standards.

Reed & Associates is responsible for the attached report, dated May 23, 2011, and the
conclusions expressed therein. The agreed-upon procedures, unlike an audit in accordance
with U.S. generally accepted auditing standards, was not intended to enable us to express
opinions on the VA Commission's Consolidated Schedule of Awards and Claimed and
Questioned Costs or the Subgrantees' Schedule of Awards and Claimed and Questioned Costs,
conclusions on the effectiveness of internal controls, or compliance with laws, regulations, and
grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by November 22, 2011. Notice of final action is due by May 22, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Darian
Mims, Auditor, at (202) 606-9367.

Attachment

cc:     Nikki Nicholau, Director, Virginia Office on Volunteerism and Community Service
        Martin Brown, Commissioner, Virginia Department of Social Services
        Walt Kucharski, Auditor of Public Accounts
        Robert Velasco II, CNCS Chief Operating Officer
        William Anderson, CNCS Chief Financial Officer
        Rocco Gaudio, Deputy Chief Financial Officer, CNCS Grants & Field Financial
        Management
        Claire Moreno, Audit Liaison, CNCS Office of Grants Management
        Jack Goldberg, CNCS Grant Officer
        Deirdre Reed , Partner, Reed & Associates
                1201 New York Avenue, NW   *  Suite 830* DWashington, DC 20525
                    202-606-9390  *Hotline: 800-452-8210 *www.cncsoig .gov

                      Senior Corps * AmeriCorps * Learn and Serve America
                                               

                                               



                                     Table of Contents
                                                                             Page

Executive Summary                                                                 1

Independent Accountants’ Report on Applying Agreed-Upon Procedures                4

       Results – Costs Claimed                                                    5

       Exhibit A Consolidated Schedule of Claimed and Questioned Costs            6

       Schedule A Schedule of Claimed and Questioned Costs
       – Administrative Grant                                                     7

       Schedule B Schedule of Claimed and Questioned Costs
       – Program Development and Training (PDAT) Grants                           8

       Schedule C Schedule of Claimed and Questioned Costs
       – Competitive and Formula Grant (Boaz and Ruth)                            9

       Schedule D Schedule of Claimed and Questioned Costs
       – Formula Grant (Mountain Empire Community College)                        10

       Schedule E Schedule of Claimed and Questioned Costs
       – Formula Grant (University of Virginia)                                   11

Results – Internal Control and Compliance Findings                                12


Appendix A – Corporation for National and Community Service’s Response to Draft
             Report


Appendix B – Virginia Office on Volunteerism and Community Service’s Response to Draft
             Report
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Reed & Associates (Reed) to perform agreed-upon procedures of
grant costs and compliance testing for Corporation-funded Federal assistance provided to the
Virginia Office on Volunteerism and Community Service (Commission).

Results

As a result of applying our procedures, we identified the following 10 findings:

    1. Subgrantees did not comply with AmeriCorps citizenship eligibility requirements for
       members.

    2. Subgrantees did not have controls in place to ensure proper member timekeeping.

    3. Subgrantee members performed non-AmeriCorps activities and claimed unallowable
       service hours.

    4. Subgrantee members claimed service hours prior to their enrollment date, prior to the
       program start date and after the member’s term had expired.

    5. Weaknesses were identified with accounting systems of the Commission and a
       subgrantee.

    6. Member compliance requirements were not met for compelling personal circumstances.

    7. Commission and subgrantees claimed unallowable other direct costs.

    8. Exceptions specific to AmeriCorps member requirements were identified at each of the
       three subgrantees reviewed.

    9. Exceptions related to the administration of grants were identified at each of the three
       subgrantees reviewed.

    10. Timekeeping procedures at two of the three subgrantees reviewed did not meet the
        standards established by the Office of Management and Budget (OMB) Circulars.
                                                1 

 
  We questioned claimed Federal-share costs of $53,131. We also questioned AmeriCorps
  members’ education awards of $61,056 and accrued interest of $8,981. A questioned cost is an
  alleged violation of a provision of law, regulation, contract, grant, cooperative agreement, or
  other agreement or document governing the expenditure of funds, or a finding that, at the time
  of testing, includes costs not supported by adequate documentation. Detailed results of our
  agreed-upon procedures on claimed costs are presented in Exhibit A Consolidated Schedule of
  Claimed and Questioned Costs, and supporting schedules.

  Agreed-Upon-Procedures Scope

  We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
  (AUP) Program for Corporation Awards to Grantees (including subgrantees), dated April 2010.
  Our procedures covered testing of the following grants:

                                                                                     Total Costs
Grant Program         Award No.          Award Period           AUP Period           During AUP
                                                                                       Period
 Administrative     08CAHVA001        01/01/08 – 12/31/10    01/01/08 – 06/30/10      $696,811
    Program
Development and     07PTHVA001        01/01/07 – 12/31/09    01/01/08 – 12/31/09       $199,804
Training (PDAT)
     PDAT           10PTHVA001        01/01/10 – 12/31/12    01/01/10 – 06/30/10        $29,463
    Disability      08CDHVA001        01/01/08 – 12/31/10    01/01/08 – 06/30/10       $63,549
 Recovery Act –     09RFHVA001        06/01/09 – 09/30/10    06/01/09 – 06/30/10       $397,599
    Formula
 AmeriCorps –       06ACHVA001        09/01/06 – 08/31/09    09/01/07 – 08/31/09      $1,210,888
  Competitive
 AmeriCorps –       06AFHVA001        09/01/06 – 08/31/13    10/01/07 – 03/31/10      $5,888,625
    Formula

  We performed onsite testing at the Commission and three subgrantee sites from October 11,
  2010 through December 2, 2010, and completed our testing off-site on January 7, 2011.

  Background

  The Corporation, pursuant to the authority of the National Community Service Trust Act of 1993,
  as amended, awards grants and cooperative agreements to State Commissions and National
  Direct Grantees to assist in the creation of full-time and part-time national and community
  service positions. Participants who have completed their term of service qualify for an
  educational award. The amount of the award is based on the length of the participant’s term of
  service.

  The Commission is part of the Virginia Department of Social Services located in Richmond, VA.
  The Commission is also associated with the Governor’s Office because its Executive Director
  shares time between the Commission and the Governor’s Office.


                                                2 
The Commission employs eight persons, including the Executive Director. It relies on fiscal
personnel within the Department of Social Services for accounting and financial reporting. The
Commission has been subject to monitoring visits by Corporation personnel, as well as a
previous full-scope audit by the OIG. The Commission currently has 24 subgrantees located
throughout the state. They include non-profits, as well as colleges and universities.

Exit Conference

We discussed the contents of the draft report with the Corporation, the Commission and its
subgrantees at an exit conference on January 27, 2011. We summarized the Commission’s
comments following each finding and have included the verbatim comments of the Corporation
and Commission as Appendices A and B, respectively. The Corporation did not respond to the
individual findings and recommendations.




                                              3 
  Office of the Inspector General
  Corporation for National and Community Service
  1201 New York Avenue, NW, Room 830
  Washington, DC 20520


                         INDEPENDENT ACCOUNTANTS’ REPORT ON
                           APPLYING AGREED-UPON PROCEDURES

  We have performed the procedures detailed in the OIG’s Agreed-Upon Procedures (AUP) for
  Corporation Awards to Grantees (including Subgrantees), dated April 2010. These procedures
  were agreed to by the OIG solely to assist it in grant costs and compliance testing of
  Corporation-funded Federal assistance provided to Virginia Office on Volunteerism and
  Community Service (the Commission) for the awards shown below.

  This AUP engagement was performed in accordance with standards established by the
  American Institute of Certified Public Accountants and generally accepted government auditing
  standards. The sufficiency of these procedures is solely the responsibility of the OIG.
  Consequently, we make no representation regarding the sufficiency of the procedures, either for
  the purpose for which this report has been requested or any other purpose.

  Our procedures covered testing of the following awards:

                                                                                      Total Costs
Grant Program       Award No.           Award Period            AUP Period            During AUP
                                                                                        Period
Administrative     08CAHVA001        01/01/08 – 12/31/10     01/01/08 – 06/30/10       $696,811
   PDAT            07PTHVA001        01/01/07 – 12/31/09     01/01/08 -12/31/09        $199,804
   PDAT            10PTHVA001        01/01/10 – 12/31/10     01/01/10 – 06/30/10       $ 29,463
  Disability       08CDHVA001        01/01/08 – 12/31/11     01/01/08 – 06/30/10        $63,549
Recovery Act-      09RFHVA001        06/01/09 – 09/30/10     06/01/09 – 06/30/10       $397,599
  Formula
AmeriCorps –       06ACHVA001        09/01/06 – 08/31/09     09/01/07 – 08/31/09      $1,210,888
 Competitive
AmeriCorps –       06AFHVA001        09/01/06 – 08/31/13     10/01/07 – 03/31/10      $5,888,625
  Formula


                                                4 
                                   Results - Costs Claimed

We questioned claimed Federal-share costs of $53,131. A questioned cost is an alleged
violation of provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned AmeriCorps members' education awards of $61,056 and accrued interest of
$8,981. Grant participants who successfully complete terms of service under AmeriCorps
grants are eligible for education awards and repayment of student loan interest accrued during
the term of service from the Corporation's National Service Trust. These award amounts are
not funded by Corporation grants and thus are not included in claimed costs. However, as part
of our AUP, and using the same criteria as claimed costs, we determined the effect of our
findings on education and accrued interest award eligibility.

Detailed results of our AUP on claimed costs are in Exhibit A and the supporting schedules. We
were not engaged to and did not perform an examination, the objective of which would be
expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed other procedures, other matters might have come to our attention
that would have been reported.

This report is intended solely for the information and use of the management of the Corporation
and the Commission, and should not be used by those who have not agreed to the procedures
or have not taken responsibility for the sufficiency of the procedures for their purposes.
However, the report is a matter of public record and its distribution is not limited.




May 6,2011




                                               5
       Exhibit A

                           Virginia Office on Volunteerism and Community Service
                          Corporation for National and Community Service Awards
                          Consolidated Schedule of Claimed and Questioned Costs

                                                     Costs         Costs       Education     Accrued
Grant Number       Program      Total Funding     Claimed for                   Awards                  Reference
                                                                 Questioned                  Interest
                                                  Audit Period                 Questioned

08CAHVA001     Administrative     $    865,357      $ 696,811        $ 8,314                            Schedule A
                  Grant
07PTHVA001          PDAT               274,315         199,804         9,922                            Schedule B
10PTHVA001          PDAT                96,429          29,463         3,907                            Schedule B
08CDHVA001         Disability          141,560          63,549
09RFHVA001     Recovery Act –          525,808         397,599
                  Formula

06ACHVA001     AmeriCorps –           1,791,491      1,210,888        18,054       $20,655     $ 480    Schedule C
                Competitive

06AFHVA001     AmeriCorps –        12,151,624        5,888,625        12,934        40,401      8,501   Schedules
                 Formula                                                                                C, D, & E

   TOTAL                          $15,846,584       $8,486,739       $53,131       $61,056     $8,981




                                                          6 

        
                                                                               Schedule A

               Virginia Office on Volunteerism and Community Service
                     Schedule of Claimed and Questioned Costs
                                 Administrative Grant

                                                                  Notes
                Claimed Costs                         $696,811
                Questioned Costs:
                   Parking                              $8,309      1
                   Unsupported Journal Entry                 5      2
                Total Questioned Costs                  $8,314


NOTES:

     1. The Commission claimed costs to the grant for employee parking. However,
        employee parking is included in the costs of Commission’s building lease, and
        employees reimburse the Commission for the parking costs they incur. Therefore,
        employee parking costs should have been credited to the grant. Additionally, the
        grant award budget did not include these types of costs. These questioned costs are
        discussed under Finding No. 7.

     2. The Commission claimed costs to the grant that had no supporting documentation.
        These questioned costs are discussed under Finding No. 7.




                                           7 
                                                                                 Schedule B

               Virginia Office on Volunteerism and Community Service
                     Schedule of Claimed and Questioned Costs
                                     PDAT Grants

                                                  07PTHVA001 10PTHVA001 Notes
    Claimed Costs                                    $199,804     $29,463
    Questioned Costs
       Parking                                         $      94        $ 532       1
       Rent                                                9,168         3,475      2
       Recycling                                             635                    2
       Security                                               25                    2
       Under-claimed – Upward Adjustment                                 (100)      3
    Total Questioned Costs                             $9,922           $3,907


NOTES:

     1. The Commission claimed costs to the grant for employee parking. However,
        employee parking is included in the cost of the Commission’s building lease, and
        employees reimburse the Commission for the parking costs they incur. Therefore,
        employee parking costs should have been credited to the grant. Additionally, the
        grant award budget did not include these types of costs. These questioned costs are
        discussed under Finding No. 7.

     2. These costs were allocated to the PDAT grants after being fully recovered from the
        allocation to the Administrative grant. In addition, the costs were not included in the
        grant award budget. These questioned costs are discussed under Finding No. 7.

     3. A fee imposed from the State’s procurement office was claimed in error as $100 less
        than the actual fee. As a result, we are recommending an upward adjustment to the
        costs claimed and netting this amount against the costs questioned. These costs are
        discussed under Finding No. 7.




                                             8 
                                                                               Schedule C

                            Boaz and Ruth (Subgrantee)
                      Schedule of Claimed and Questioned Costs
                          Competitive and Formula Grants

                                                  06ACHVA001      06AFHVA001       Notes
 Claimed Costs                                       $707,699          $93,019
 Questioned Costs
    Living Allowances & Fringe Benefits                $ 8,791                       1
    Health Insurance Premiums                            2,529                       2
    Unsupported Costs                                    5,832                       3
    Living Allowances & Fringe Benefits                                  $5,948      4
    Administrative Fee                                     902              313      5
 Total Questioned Costs                                $18,054           $6,261
 Total Questioned Education Awards and Interest        $21,135          $19,191      6


NOTES:

     1. Our review at Boaz and Ruth identified AmeriCorps members who were not eligible
        due to the lack of U.S. citizenship or legal residency documentation. We also
        identified member timesheet discrepancies. As a result, member living allowances,
        fringe benefits and education awards are questioned. These costs are discussed
        under Findings No. 1 and 2.

     2. Costs were claimed to the grant for health insurance premiums for individuals who
        were not involved in the AmeriCorps program. These questioned costs are
        discussed under Finding No. 7.

     3. Costs were claimed to the grant without supporting documentation.            These
        questioned costs are discussed under Finding No. 7.

     4. Member service hours at Boaz and Ruth included activities not related to the
        AmeriCorps program. We questioned the living allowances related to these hours
        and reduced the number of hours claimed, thus affecting eligibility for education
        awards. The living allowances questioned were $5,948. The education awards
        questioned were $5,725. These costs are discussed under Finding No. 3.

     5. The administrative fees questioned are the result of the questioned costs from notes
        1 through 3 above, multiplied by 5.26 percent.

     6. Education awards have been questioned due to eligibility exceptions identified in
        Finding No. 1, timesheet discrepancies identified in Finding No. 2, non-AmeriCorps
        service hours identified in Finding No. 3 and exceptions identified with partial
        education awards in Finding No. 6.



                                            9 
                                                                                 Schedule D

                  Mountain Empire Community College (Subgrantee)
                     Schedule of Claimed and Questioned Costs
                                   Formula Grant

                                                                  Notes
                  Claimed Costs                       $474,967
                  Questioned Costs
                     Living Allowances & Fringe         $4,103      1
                     Member Travel                       2,000      2
                     Member Training                       100      2
                  Total Questioned Costs                $6,203
                  Questioned Education Awards           $9,801    1&3


NOTES:

     1. Our review at Mountain Empire Community College (MECC) identified discrepancies
        between timesheets and total service hours claimed by members. As a result, living
        allowances and fringe benefits totaling $4,103 have been questioned. A resulting
        reduction in the service hours also affected the members’ eligibility for an education
        award. As a result, education awards totaling $8,339 have been questioned. These
        questioned costs are discussed under Finding No. 2.

     2. MECC claimed $2,100 costs for member travel and member training that had been
        budgeted from the subgrantee’s match share. These questioned costs are
        discussed under Finding No. 7.

     3. Partial education awards were granted to early exiting members at MECC without
        proper documentation of a compelling personal circumstance. As a result, partial
        education awards totaling $1,462 have been questioned. These costs are discussed
        under Finding No. 6.




                                            10 
                                                                               Schedule E

                         University of Virginia (Subgrantee)
                     Schedule of Claimed and Questioned Costs
                                   Formula Grant

                                                                      Notes
           Claimed Costs                                   $513,512
           Questioned Costs
              Member Health Insurance                          $446      1
              Administrative Fee                                 23      2
           Total Questioned Costs                              $469
           Questioned Education Awards and Interest         $19,910      3


NOTES:

     1. The University of Virginia (UVA) claimed two months’ health insurance premiums for
        a former AmeriCorps member after that person had left the program. These
        questioned costs are discussed under Finding No. 7.

     2. The Administrative fees questioned are the result of the questioned costs from Note
        1, multiplied by 5.26 percent.

     3. Member service hours claimed at UVA included hours prior to the program’s
        allowable start date and hours after the members’ term had expired. Reducing the
        allowable service hours affected the members’ eligibility to receive an education
        award. As a result, education awards totaling $18,900 and $1,010 in accrued
        interest have been questioned. These costs are discussed under Finding No. 4.




                                           11 
                              Results – Internal Control and Compliance

The results of our agreed-upon procedures revealed instances of non-compliance with grant
provisions, regulations, or OMB requirements, as shown below:

Finding No. 1 – Subgrantees Did Not Comply With AmeriCorps Citizenship Eligibility
Requirements

We determined members to be ineligible due to exceptions noted below.

Boaz and Ruth

We reviewed seven members from the Formula grant (06AFHVA001) and 22 members from the
Competitive grant (06ACHVA001) to determine whether they were eligible. Three members
under the Formula grant lacked proof of U.S. citizenship or legal residency. Proof was
subsequently provided by the subgrantee for all three members. 12 members from the
Competitive grant lacked proof of U.S. citizenship. Proof was subsequently provided for 10 of
these 12 members. Costs for the other two members are questioned in the table below.

                                               Education       Living        Fringe       Admin
                    Program     Eligibility
           Member                                Award       Allowance      Benefits    Questioned
                      Year     Exception(s)
                                               Questioned    Questioned    Questioned    @ 5.26%


            B-3      07/08    No Evidence of        $2,363        $4,010         $307         $227
                              US Citizenship

            B-10     07/08    No Evidence of                       1,053           81           60
                              US Citizenship

                               Grant Total          $2,363        $5,063         $388         $287


Living allowances questioned are net of questioned living allowances from the prior OIG review
and also from costs questioned from the Commission and reimbursed by Boaz and Ruth.

MECC

We reviewed 18 members from the Formula grant (06AFHVA001) to determine whether they
were eligible. We initially determined three members lacked proof of citizenship or legal
residency, but subsequently obtained that proof for all three during fieldwork. As a result, we
did not question any costs associated with those members.

MECC stated that it is a relatively new subgrantee and is still in the process of strengthening its
controls to ensure compliance with all aspects of the grant provisions.

Criteria

45 C.F.R. § 2522.200, What are the eligibility requirements for an AmeriCorps participant?,
states:

“An AmeriCorps participant must . . . Be a citizen, national, or lawful permanent resident alien of
the United States.”

                                                     12 
Eligibility exceptions identified above result in questioned costs totaling $5,738 and questioned
education awards, totaling $2,363, as shown in the table above.

Recommendations:

We recommend that the Corporation:

       1a. Ensure that the Commission trains its subgrantees on the requirements of grant
           provisions; and

       1b. Recover the disallowed costs based on our costs questioned.

Commission’s Response:

The Commission indicated that it adjusted training and monitoring procedures prior to the start
of the engagement. Program director training in June of each year will include a clear direction
for ensuring compliance with citizenship-related requirements. The Commission also indicated
that the monitoring change required Commission staff to review 100 percent of member files,
with member citizenship being reviewed during the first monitoring visit.

The Commission stated that Boaz and Ruth requested the two members’ questioned birth
certificates from the Virginia Department of Health (VDH). They were unsuccessful in retrieving
this information because these types of documents cannot be released to the public. As an
alternative, Boaz and Ruth received verification of the members’ birth date and place of birth
from VDH. The Commission is requesting the questioned costs be omitted from the report.

Auditor’s Comments:

The Corporation should review the adjusted training and monitoring procedures and determine
whether it effectively addresses the finding.

The alternative verifications obtained by Boaz and Ruth do not resolve our member eligibility
finding.

Findings Nos. 2 – 4

AmeriCorps member service hours were reviewed by examining member timesheets,
participation and enrollment periods.      We identified specific service hours that were
questionable. As a result, questioned living allowances, fringe benefits, administrative costs
and education awards were quantified. Findings Nos. 2, 3 and 4 may include members cited for
multiple examples of questioned service hours. Questioned amounts are based on the largest
category of questioned service hours for a particular member and are therefore only included in
one of the findings. The table below summarizes the net effect of Findings Nos. 2 – 4 without
duplicating any questioned costs.




                                               13 
                                                                      Living                                 Education
                                                                   Allowances          Administrative         Awards
   Grant No.             Subgrantee             Finding #
                                                                    & Fringe              Fees                  and
                                                                    Benefits                                  Interest
 06ACHVA001             Boaz and Ruth        2 – Timesheets                  $3,626                $191          $12,293
                                                3 – Non-
 06ACHVA001             Boaz and Ruth          AmeriCorps                                                          6,479
                                                Activities

  Competitive
                                                                             $3,626                $191          $18,772
   Subtotal


 06AFHVA001             Boaz and Ruth        2 – Timesheets                                                       13,466
                                                3 – Non-
 06AFHVA001             Boaz and Ruth          AmeriCorps                     5,948                  313           5,725
                                                Activities

 06AFHVA001                MECC              2 – Timesheets                   4,103                                8,339
                                                3 – Non-
 06AFHVA001                 UVA                AmeriCorps                                                          9,938
                                                Activities

                                             4 – Enrollment
 06AFHVA001                 UVA                  Period                                                            9,972

    Formula
                                                                         $10,051                   $313          $47,440
    Subtotal
     TOTAL                                                               $13,677                   $504          $66,212

Finding 2 – Subgrantees Did Not Have Controls in Place to Ensure Proper Member
Timekeeping.

Boaz and Ruth

We tested 29 members (22 from the Competitive grant and 7 from the Formula grant) and noted
the following timesheet exceptions.

                                                                                  Living
                                                                                Allowance                        Education
                                                                  Timesheet         and        Administrative    Award and
               Program               Timesheet       Timesheet
 Grant No.                 Member                                   Hours        Related          Costs           Accrued
                 Year               Exception(s)       Hours
                                                                  Questioned      Fringe        Questioned        Interest
                                                                                 Benefits                        Questioned
                                                                                Questioned



                                        Unsigned
                                      Timesheets
06ACHVA001      07-08        B-2          and          1,411        193.75            $1,098               $58             0
                                      Inconsistent
                                      Timesheets


                                                            14 
                                                                                        Living
                                                                                      Allowance                         Education
                                                                        Timesheet         and        Administrative     Award and
                Program                  Timesheet      Timesheet
    Grant No.               Member                                        Hours        Related          Costs            Accrued
                  Year                  Exception(s)      Hours
                                                                        Questioned      Fringe        Questioned         Interest
                                                                                       Benefits                         Questioned
                                                                                      Questioned



06ACHVA001       07-08        B-6         Unsigned          107           32.75               366                 19
                                         Timesheets
                                               1
06ACHVA001       07-08        B-8           n/a           756.25                                                                    480
                                          Unsigned
06ACHVA001       07-08        B-9                          1,706          230.75             1,876                99           4,725
                                         Timesheets

                                    2     Unsigned
06ACHVA001       07-08       B-10                         276.50          61.50               286                 15
                                         Timesheets


06ACHVA001       08-09        B-15.     Inconsistent       1,696          77.25                                                4,725
                                        Timesheets

06ACHVA001       08-09        B-17      Inconsistent     1,480.75         20.25                                                       0
                                        Timesheets
                                               3
06ACHVA001       08-09        B-19          n/a             873                                                                2,363
Competitive                                                                                $3,626               $191        $12,293
Subtotal

06AFHVA001       09-10        B-24      Inconsistent     1,684.50         81.50                                               12,216
                                        Timesheets

                                          Unsigned
                                            and
06AFHVA001       09-10        B-25                        459.50          30.50                                                1,250
                                        Inconsistent
                                        Timesheets

Formula                                                                                        $0                 $0        $13,466
Subtotal



Unsigned Timesheets

Unsigned timesheets represent a combination of timesheets not signed by the member, the
supervisor or both.

Timesheet Inconsistencies

Timesheet inconsistencies represent differences between the hard copy timesheets, the
electronic OnCorps timesheets and/or the time clock exception reports.
                                                            
1
 The hours certified to the trust were 1,342 but the total per the timesheets was only 756.25. We questioned the accrued interest
applicable to the education award that had already been questioned by the previous OIG review, but the review had failed to
question the accrued interest.
2
  The costs from member B-10 have been questioned in Finding No. 1.
3
  The hours certified to the trust were 907, but the total per the timesheets was only 873. We questioned the education award since
the hours did not meet the minimum service hour requirements.
                                                                  15 
Members are required to punch a time clock, complete a hard copy timesheet, and, beginning in
Program Year (PY) 2009-2010, submit an electronic timesheet through OnCorps, the
Commission’s on-line time reporting system. The inconsistencies identified were mostly related
to variances in data among these three source documents.

MECC

We tested 18 members (16 from the Formula grant and 2 from the Recovery grant) and noted
the following timesheet exceptions.

                                                                                                 Living
                                                                                               Allowance       Education
                                                                                Timesheet          and         Award and
                         Program                  Timesheet      Timesheet
          Grant No.                  Member                                       Hours         Related         Accrued
                           Year                  Exception(s)      Hours
                                                                                Questioned       Fringe         Interest
                                                                                                Benefits       Questioned
                                                                                               Questioned


                                                            4
        06AFHVA001         08-09       M-3            n/a                                            $(195)
        06AFHVA001         08-09       M-4            n/a
                                                            4
                                                                                                      (195)
        06AFHVA001         08-09       M-10           n/a
                                                            4
                                                                                                      (195)

        06AFHVA001         08-09       M-10        Unsigned           531            19                 977
                                                  Timesheets

        06AFHVA001         09-10       M-11        Unsigned         650.25         85.25                781
                                                  Timesheets

        06AFHVA001         09-10       M-12        Unsigned         869.50          3.5                 195         $2,363
                                                  Timesheets

        06AFHVA001         09-10       M-13        Unsigned         477.50        192.50                586          1,250
                                                  Timesheets

        06AFHVA001         09-10       M-15        Unsigned           892            6                               2,363
                                                  Timesheets
                                             5
        06AFHVA001         09-10      M-16            n/a             895                                            2,363

        06AFHVA001         09-10       M-17        Unsigned         468.50           48               1,172
                                                  Timesheets

        06AFHVA001         09-10       M-18        Unsigned         372.50          113                 977
                                                  Timesheets



         Grant Total                                                                                 $4,103         $8,339

 
These exceptions were due to the subgrantee lacking established controls to ensure that all
timesheets were properly approved and signed.
                                                            
4
  We found that members M-3 and M-4 had served two hours during pay period ending September 4, 2008 but had not received a
living allowance. We found that member M-10 had served 28 hours during pay period ending August 27, 2009, but had not received
a living allowance. The College indicated that members’ term spanned over the College’s 26 pay period year, so those members
who served during 27 pay periods could not get paid for the extra pay period.
5
  The hours certified to the trust were 900, but the total per the timesheets was only 895. We questioned the education award since
the timesheet hours did not meet the minimum service hour requirements.
                                                                16 
UVA

We tested 14 members from the Formula grant and noted the following timesheet exceptions.

                                                                                 Timesheet
                                  Program             Timesheet      Timesheet
                      Grant No.             Member                                 Hours
                                    Year             Exception(s)      Hours
                                                                                 Questioned

                                                        Duplicate
                    06AFHVA001     08-09     U-1      training and     1,731         3
                                                     service hours

                                                        Duplicate
                    06AFHVA001     08-09     U-4      training and     1,843        1.5
                                                     service hours



Duplicate Training & Service Hours

These hours were claimed both as service hours and training hours and therefore were counted
twice. After deducting the questioned service hours, the members still met the requirement to
receive an education award.

The exceptions we noted at each entity are similar to those that have been identified in the past
on numerous occasions by the Commission. It appears that the Commission lacks methods to
identify clear and concise corrective actions for its subgrantees that will help close gaps in the
areas of non-compliance.       Although the Commission monitors subgrantees, identifying
weaknesses and generating reports, it is not successful in working with subgrantees to identify
the root cause of each problem so a solution can be found.

Criteria

2008 AmeriCorps Special Provision Section IV.C.2. AmeriCorps Members, states:

           The grantee is required to ensure that time and attendance record keeping is
           conducted by the individual who supervises the AmeriCorps member. This time
           and attendance record is used to document member eligibility for in-service and
           post-service benefits. Time and attendance records must be signed and dated
           both by the member and by an individual with oversight responsibilities for the
           member.

Segal AmeriCorps Education Awards, states:

           After successfully completing a term of service, an AmeriCorps member is
           eligible to receive an education award from the National Service Trust. The
           member may use the award to pay for current educational expenses at qualified
           institutions of higher education, or to repay qualified student loans. The award
           currently is $4,725 for a year of full-time service, with correspondingly lesser
           awards for less-than-full-time service. A member has up to seven years after the
           term of service has ended to use the award.
                                                     17 
Table 1: Term of Service and Education Award

Term of Service Minimum # of Hours Education Award

          Full Time 1700 hours for an education award of $4,725
          One-Year Half Time 900 hours for an education award of $2,362
          Two-Year Half Time 900 hours for an education award of $2,362
          Reduced Half Time 675 hours for an education award of $1,800
          Quarter Time 450 hours for an education award of $1,250
          Minimum Time 300 hours for an education award of $1,000

45 C.F.R. §2541.40 Monitoring and reporting program performance, states:

       Grantees are responsible for managing the day-to-day operations of grant and
       subgrant supported activities. Grantees must monitor grant and subgrant
       supported activities to assure compliance with applicable Federal requirements
       and that performance goals are being achieved. Grantee monitoring must cover
       each program, function or activity.

The 2008 AmeriCorps General Provisions, Section V.A.1. Responsibilities Under the Grant
states:

       1. Accountability of the Grantee. The grantee has full responsibility for
       managing all aspects of the grant and grant-supported activities, subject to the
       oversight of the Corporation. The grantee is accountable to the Corporation for
       its operation of the AmeriCorps Program and the use of Corporation grant funds.
       The grantee must expend grant funds in a judicious and reasonable manner,
       and it must record accurately the service activities and outcomes achieved
       under the grant.

Recommendation:

We recommend that the Corporation:

       2a. Work with the Commission to identify corrective action plans that address the root
           cause of each recurring subgrantee exception;

       2b. Require the Commission to strengthen its training and monitoring procedures to
           ensure that subgrantees maintain proper member timesheets; and

       2c. Work with the Commission to ensure that members at MECC who did not receive
           living allowances are paid for the service hours worked within all pay periods.

       2d. Calculate and recover the appropriate amount of disallowed costs based on our
           costs questioned.




                                               18 
Commission’s Response:

The Commission is using the finding in this report to identify opportunities for further
improvement to its monitoring process, and stated that it would not dispute any issues prior to
FY 2009-2010. However, it considered OnCorps the timekeeping system of record, and
supports the information contained in it beginning in FY 2009-2010. The Commission is
therefore requesting the questioned costs for certain members be omitted from the report.

The Commission agreed to work with MECC to ensure that all members received stipends in
accordance with applicable Federal regulations.


Auditor’s Comments:

Our analysis of member service hours at Boaz and Ruth was difficult because there were four
sets of records from which to base our conclusions. Those records included OnCorps electronic
timesheets, hard copy timesheets, time clock reports and time clock exception reports. These
records were, for the most part, contradictory. For example, there were numerous instances
where supervisor approvals were contained both on the hard copy timesheets and the electronic
timesheets, but the hours recorded were different. In the case of member B-24, there were no
timesheets originally found in OnCorps. It was not until our audit disclosed this fact that it was
discovered that the timesheets had never been approved by the member’s supervisor in
OnCorps. As a result, in mid-November (during our engagement), timesheets for the entire
program year were approved by B-24’s supervisor. This retroactive approval poses a risk since
the supervisor would have to accurately and fully recall member service hours from over one
year ago.

The members’ service hours questioned for MECC were based on the timesheets reviewed
during audit fieldwork.

We believe the documents used for the analysis described above are appropriate for both
subgrantees, and therefore we are not modifying the questioned costs.

Finding 3 – Members Performed non-AmeriCorps Activities and Claimed Unallowable
Service Hours

We determined that there were AmeriCorps members performing activities that were not related
to the AmeriCorps program.




                                               19 
Boaz and Ruth

                                                                           Living
                                                                         Allowance                     Education
                                                            Timesheet        and      Administrative   Award and
              Program             Timesheet     Timesheet
 Grant No.              Member                                Hours       Related        Costs          Accrued
                Year             Exception(s)     Hours
                                                            Questioned     Fringe      Questioned       Interest
                                                                          Benefits                     Questioned
                                                                         Questioned


                                   Non-
06ACHVA001     08-09     B-14    AmeriCorps      883.75       11.75                                      $2,363
                                  Activity

                                   Non-
06ACHVA001     08-09     B-17    AmeriCorps     1,481.25      144.50                                     4,116
                                  Activity

Grant Total                                                                  $0            $0            $6,479


                                   Non-
06AFHVA001     09-10     B-24    AmeriCorps     1,684.50       45
                                  Activity

                                   Non-
06AFHVA001     09-10     B-27    AmeriCorps     1,702.50     1,702.50      5,948           313           $4,725
                                  Activity

                                   Non-
06AFHVA001     09-10     B-28    AmeriCorps      295.25        4.5                                       1,000
                                  Activity

Grant Total                                                                $5,948         $ 313          $5,725


Non-AmeriCorps Activities

We identified these activities at Boaz and Ruth through our examination of time clock exception
reports, member interviews and member evaluations. The activities included the following:

         Marketing activities for a furniture retail and estate sale website;
         Marketing activities for a restaurant;
         Tracking response rates to marketing e-mails;
         Writing magazine and newspaper ads;
         Overall website maintenance;
         Telecommuting activities for one member to read developmental and training books and
          watched movies from home. Hours included full 8 hour days on week-ends;
         Clerical activities to assist in the preparation of grant writing;
         Maintenance and repair of non-AmeriCorps real estate holdings; and
         Janitorial services.


                                                      20 
UVA


                                                                                    Education
                                                                       Timesheet    Award and
                         Program             Timesheet     Timesheet
            Grant No.              Member                                Hours       Accrued
                           Year             Exception(s)     Hours
                                                                       Questioned    Interest
                                                                                    Questioned




                                            Questioned
           06AFHVA001               U-1     timesheet        1,731        35           $ 4,725
                          08-09               hours

                                            Questioned
           06AFHVA001     08-09     U-2     timesheet        1,760        20                 0
                                              hours

                                            Questioned
           06AFHVA001     08-09     U-4     timesheet        1,843        6.5                0
                                              hours


                                            Questioned
                                             timesheet
           06AFHVA001     08-09     U-6                      1,708        26.5           5,213
                                            hours, hours
                                             after term

           Grant Total                                                                  $9,938


Questioned Timesheet Hours

These hours from UVA have been questioned for various reasons. The School Counselor at a
service site disputed the member’s service hours, noting that the member had recorded hours
for days when she did not come to the site and had inflated hours to make up for late arrivals.
These hours were claimed toward her education award. Also, several members claimed 18 to
24 service hours during a single day for a statewide overnight event.

Hours after Term of Service

These hours represent hours that had been claimed after the member’s term ended.

These exceptions are due to the subgrantees’ failure to properly monitor or assign member
activities. They result in questioned education awards for members who had been certified as
being eligible for awards.




                                                  21 
Criteria

45 C.F.R. §2520.20 What service activities may I support with my grant, states:

           (a) Your grant must initiate, improve, or expand the ability of an organization and
           community to provide services to address local unmet environmental,
           educational, public safety (including disaster preparedness and response), or
           other human needs.

           (b)(1) You may use your grant to support AmeriCorps members performing
           direct service activities that meet local needs.

The service activities identified above for Boaz and Ruth above do not meet the requirements of
the CFR. The members instead spent their time supplementing the needs of the organization
with activities unrelated to the AmeriCorps grant. The hours questioned at UVA did not benefit
the program, and; therefore are not allocable to the grant. As a result, the hours claimed for
those members are questioned and reduce totals put forth toward earning an education award.

Recommendations:

We recommend that the Corporation:

           3a. Ensure that the Commission identifies useful corrective action plans that address the
               root cause of each recurring subgrantee exception;

           3b. Ensure that the Commission establishes a useful training tool to educate its
               subgrantees on the grant requirements, namely prohibited activities and term of
               service requirements; and

           3c. Calculate and recover the appropriate amount of disallowed costs based on our
               costs questioned.

Commission’s Response:

The Commission is using the finding in this report to identify opportunities for further
improvement to its monitoring process. The Commission indicated that it adjusted training and
monitoring procedures prior to the start of the engagement. Program director training in June of
each year includes a clear direction for ensuring compliance with term of service and prohibited
activity requirements. The Commission also reviews and approves program handbooks during
the pre-contract phase. The Commission also indicated that the monitoring change required
Commission staff to review 100 percent of member files during the first monitoring visit,
including confirming that each member’s contract contains a description of term of service
requirements and of prohibited activities.

The Commission did not contest the exceptions noted with Boaz and Ruth members, but
mentioned that the program is trying new models to maximize success. The Commission stated
that the hours in question for member U-1 at UVA should be accepted because the timesheet
contained the appropriate supervisor signature.


                                                   22 
The Commission is requesting the questioned costs for these members be omitted from the
report.

Auditor’s Comments:

The Commission is stating the fact that the member timesheets in question for September 2008
and early November 2008 were approved should substantiate the service hours claimed. The
documentation found in the UVA member file which refuted the member’s hours was an e-mail
dated November 17, 2008, after the timesheets had been approved. Due to the timing of the
timesheets being approved and the e-mail refuting the hours, the finding is not resolved.

Finding 4 – Member Hours Served Outside of the Member Service Period

We determined that AmeriCorps members served hours outside of the members’ service period.

Boaz and Ruth

                                                                                                                           Timesheet
                                                    Program                          Timesheet           Timesheet
                           Grant No.                                    Member                                               Hours
                                                      Year                          Exception(s)           Hours
                                                                                                                           Questioned


                        06ACHVA001                     07-08             B-7        Hours Prior to         1,319             32.25
                                                                                     Enrollment

                        06ACHVA001                     07-08             B-9        Hours Prior to         1,706             45.50
                                                                                     Enrollment

                          Grant Total                                                                                        77.75

 
Hours Prior to Enrollment

These hours were claimed prior to the member’s enrollment date. The education award for
member B-9 was questioned under Finding No. 2 above due to unsigned timesheets, and
member B-7 did not receive an education award.
 
UVA

                                                                                                                                     Education
                                                                                                               Timesheet
                                       Program                              Timesheet         Timesheet                              Award and
             Grant No.                                         Member                                            Hours
                                         Year                              Exception(s)         Hours                                 Accrued
                                                                                                               Questioned
                                                                                                                                      Interest
                                                                                                                                     Questioned

           06AFHVA001                    08-09                  U-2        Hours prior to        1,760               83                         6
                                                                                                                                      $4,725
                                                                             program

           06AFHVA001                    08-09                  U-4        Hours prior to        1,843               151                5,247
                                                                             program

            Grant Total                                                                                                                $9,972




                                                            
6
    Education award was questioned with the combined questioned hours for member U-2 in Findings No. 2, 3 and 4. 

                                                                                   23 
Hours Prior to Program

These hours were claimed prior to the program’s allowable start date.

UVA requires its members to enroll and begin serving at school sites prior to the start of the
school year, which is also the program’s official start date.

Criteria

     The Notice of Grant Award document states: “No member may enroll prior to the
     approved start date of the member enrollment period.”  
      
Recommendations:

We recommend that the Corporation:

           4a. Ensure that the Commission assists subgrantees in implementing controls that
               preclude claiming hours outside of the program start and end date; and

           4b. Calculate and recover the appropriate amount of disallowed costs based on our
               costs questioned.

Commission’s Response:

The Commission indicated that it adjusted training and monitoring procedures prior to the start
of the engagement. Program director training in June of each year includes a clear direction for
ensuring compliance with start and end date requirements, as well as procedures for ensuring
that members have ample opportunity for completing their service hours. The Commission also
reviews and approves program handbooks during the pre-contract phase. The Commission
also indicated that the monitoring change required Commission staff to review 100 percent of
member files during the first monitoring visit, ensuring that members have the required
information about completion of service hours, and the opportunity to serve the number of hours
expected.

In addition, the Commission noted that the use of OnCorps allows it to monitor member service
hours on an ongoing basis via routine desk reviews.

Auditor’s Comments:

The Corporation should review the adjusted training and monitoring procedures and determine
whether they effectively address the finding.

Finding 5 – Weaknesses Identified With Accounting Systems of the Commission and a
Subgrantee

We identified weaknesses at the Commission and one of the subgrantees in the design and the
use of their accounting systems as discussed in detail below.



                                               24 
Commission

We identified two weaknesses during our site visit at the Commission. The Commission enters
budget information into its accounting system based on anticipated award amounts from the
Corporation. This data is entered by grant and by cost category. Once the grants are awarded,
the Commission cannot modify its budget data within the accounting system to make any
needed changes.

Comparisons of budget to actual grant expenditures is performed at a high level using the
anticipated budget numbers originally entered into the accounting system. A comparison of
budget to actual numbers is not performed for costs at the cost category level. Rather, it is
performed based on grant totals rather than cost category amounts.

Budget data is treated in this manner because there is a discrepancy in the timing between the
state’s budgetary cycle and the receipt of award notices from the Corporation. The Commission
is required to submit budget data prior to receiving notification of grant award amounts.

This condition could cause the Commission to exceed a grant’s budget line item prior to
incurring the costs and submitting financial reports to the Corporation. Any overages in excess
of 10 percent of the line items within grant award budgets would be at risk for being questioned.

Subgrantee – Boaz and Ruth

Boaz and Ruth was unable to provide a clear audit trail from its accounting system to the costs
claimed to the Commission. We attempted to obtain reports from the accounting system by
quarter and then by month by querying the costs in the AmeriCorps cost center and reconciling
the costs from the query to the costs claimed. Our attempts were unsuccessful.

As an alternative, Boaz and Ruth reconstructed the costs claimed by manually attaching
supporting documents to hard copy monthly Periodic Expense Reports (PER) that supported
costs claimed and fastened those hard copy documents into a binder. Using this binder, we
were able to view the population of costs claimed and select a sample of transactions for
testing. Our discussion with the former subgrantee accountant indicated that the PERs were
prepared directly from invoices rather than from the accounting system.

The accounting system is not being utilized to its full capability and the subgrantee is not
meeting the requirement to maintain a financial management system in accordance with the
AmeriCorps provisions. More importantly, providing an audit trail to costs claimed becomes a
much more difficult task because it requires manual reconstruction. Boaz and Ruth is at risk in
losing any type of audit trail the further along in time these accounts go without being
reconciled.

Criteria

2008 AmeriCorps General Provisions, Section V.B. Financial Management Standards, states:

           1. General. The grantee must maintain financial management systems that
           include standard accounting practices, sufficient internal controls, a clear audit
           trail, and written cost allocation procedures, as necessary.             Financial
           management systems must be capable of distinguishing expenditures
                                                 25 
       attributable to this grant from expenditures not attributable to this grant. The
       systems must be able to identify costs by programmatic year and by budget
       category and to differentiate between direct and indirect costs or administrative
       costs.

Recommendation:

       5. We recommend that the Corporation work with the grantee and its subgrantees to
          ensure that the accounting systems are used to their fullest potential so that they
          meet the grant provision requirements; specifically strong internal controls, the ability
          to produce useful financial reports for preparation of financial reports and comparison
          of actual to budget costs by line item and by grant.

Commission’s Response:

The Commission and the Finance Division have determined that budget modifications can be
achieved at any point during the year. This will allow the Commission to insert the Corporation’s
final budget into the accounting system and enable it to track budget numbers by cost category.

A change in personnel at Boaz and Ruth has occurred since the period under review. With this
change, there have also been changes in procedures.

Auditor’s Comments:

The change to the Finance Division’s budgetary process will resolve this finding. In addition, the
change in personnel at Boaz and Ruth will improve its ability to comply with the financial
requirements of the program. The Corporation should review the new procedures and the roles
performed by the new personnel at Boaz and Ruth and determine whether they effectively
address the finding.

Finding 6 – Member Compliance Requirements Were Not Met for Compelling Personal
Circumstances

We found several instances whereby partial education awards were granted to members who
exited the program early, but whose reason for departure did not qualify as a compelling
personal circumstance. Several of these instances had been identified in a previous OIG
review. Others were identified during our fieldwork as shown below.




                                               26 
Boaz and Ruth

                                                                            Compelling  Education
                                                               Program                                    Accrued
                  Grant No.                    Member                         Personal    Award
                                                                 Year                                     Interest
                                                                           Circumstance Questioned
                                                                           Had proven to
                                                                             be a good
              06ACHVA001                            B-2         07-08       example for            $07
                                                                               other
                                                                             members
                                                                             The award
                                                                           was needed to
              06ACHVA001                            B-7         07-08                               07
                                                                            assist son to
                                                                           attend college
                                                                              Left the
                                                                              program
                                                                            because the
              06ACHVA001                            B-8         07-08                               08         $480
                                                                            pay was not
                                                                            adequate to
                                                                            pay her bills.
                                                                           No justification
              06ACHVA001                           B-17         08-09         found in          4,1169
                                                                            member file.
                Grant Total                                                                     $4,116         $480

Mountain Empire Community College

                                                                                   Compelling    Education
                                                                   Program
                          Grant No.                       Member                    Personal       Award
                                                                   Year
                                                                                 Circumstance    Questioned
                                                                                 Parents
                          06AFHVA001 M-4                           08/09                           $ 709
                                                                                 Divorced
                                                                                 Parents
                          06AFHVA001 M-5                           08/09                                 753
                                                                                 Divorced
                          Grant Total                                                              $1,462




                                                            
7
    Partial education award was questioned and agreed to be repaid in a previous OIG report.
8
  Partial education award was questioned and agreed to be repaid in a previous OIG report, but the interest
forbearance amount had not previously been questioned. This amount was also questioned above in Finding No. 2.
9
    This amount has also been questioned above in Finding No. 3.

                                                                           27 
According to Boaz and Ruth officials, the previous program director did not have a clear
understanding of the requirements for partial education awards and has since been replaced.
MECC stated that it is a relatively new subgrantee and is still in the process of learning all the
requirements of the program.

Criteria

45 C.F.R. § 2522.230 Under what circumstances may AmeriCorps participants be
released from completing a term of service, and what are the consequences?, states:

           An AmeriCorps program may release a participant from completing a term of
           service for compelling personal circumstances, as determined by the program,
           or for cause.

            (a) Release for compelling personal circumstances.

    (1) An AmeriCorps program may release a participant upon a determination by the
        program, consistent with the criteria listed in paragraphs (a)(6) and (a)(7) of this
        section, that the participant is unable to complete the term of service because of
        compelling personal circumstances, if the participant has otherwise performed
        satisfactorily and has completed at least fifteen percent of the agreed term of
        service.

    (2) A participant who is released for compelling personal circumstances and who
        completes at least 15 percent of the required term of service is eligible for a pro-
        rated education award.

    (3) The program must document the basis for any determination that compelling
        personal circumstances prevent a participant from completing a term of service.

    (4) Compelling personal circumstances include:

           (i) Those that are beyond the participant's control, such as, but not limited to:

              (A) A participant's disability or serious illness;

              (B) Disability, serious illness, or death of a participant's family member if this
                  makes completing a term unreasonably difficult or impossible; or

              (C) Conditions attributable to the program or otherwise unforeseeable and
                  beyond the participant's control, such as a natural disaster, a strike,
                  relocation of a spouse, or the nonrenewal or premature closing of a
                  project or program, that make completing a term unreasonably difficult or
                  impossible;

           (ii) Those that the Corporation, has for public policy reasons, determined as
                such, including:

              (A) Military service obligations;

                                                     28 
           (B) Acceptance by a participant of an opportunity to make the transition from
               welfare to work; or

           (C) Acceptance of an employment opportunity by a participant serving in a
               program that includes in its approved objectives the promotion of
               employment among its participants.

Recommendations:

We recommend that the Corporation require the Commission to:

       6a. Reiterate to its subgrantees what constitutes a valid personal compelling
           circumstance.

       6b. Provide second level approval to its subgrantees when verifying documentation and
           justification of partial education awards.

Commission’s Response:

The Commission indicated that it adjusted training and monitoring procedures and content prior
to the start of the engagement. Program director training in June of each year includes a clear
direction for ensuring compliance with release of members due to compelling personal
circumstances.

The Commission also indicated that the monitoring change had emphasized proper reasons for
members to exit the program early due to compelling personal circumstances.

The Commission also offered more information for members B-8 and B-17. The Commission
provided an e-mail exchange and a letter from the Corporation showing that the $480 interest
from member B-8’s education award was added to the debt. The Commission also provided an
e- mail exchange between Boaz and Ruth and Commission personnel stating that member B-17
was requesting an early departure due to the death of his mother.

Auditor’s Comments:

We agree that the questioned interest amount of $480 applicable to member B-8 has been
resolved.     This information was not provided during fieldwork. The information provided
concerning the member’s compelling personal circumstance is useful, but does not entirely
resolve the finding. The member file did not contain this information and it was not provided to
us during fieldwork. The e-mail exchange points out the fact that the member’s mother had
died, but does not convey how her death made completing the term unreasonably difficult or
impossible (as required by the CFR). We suggest that the Commission and Boaz and Ruth
work to further clarify the compelling personal circumstance during the audit resolution phase.

The Commission did not respond to recommendation number 6b, that it provides second-level
approval to its subgrantees when verifying documentation and justification of partial education
awards. We believe that this additional approval is necessary.



                                              29 
Finding 7 – The Commission and Subgrantees Claimed Unallocable and Unsupported
Costs

Our testing of other direct costs found instances of questionable costs as shown below.

Commission

Costs claimed to the Administrative and PDAT grants included costs which were not allocable to
the grants.

The Commonwealth of Virginia Government pays for parking to its landlord for parking spaces
at the building in which the Commission resides. These costs are allocated to various funding
sources, including the Corporation’s Administrative and PDAT grants. The employees
reimburse the state $42 each month for the use of the parking spaces. These reimbursements,
however, have never been credited to the grants. Additionally, we note that the PDAT and
Administrative grants do not include parking in its grant award budget. As a result, we
questioned $8,935 (Grant Nos. 07PTHVA001 – $94, 10PTHVA001 – $532, and 08CAHVA001 –
$8,309) of parking costs.

The Commonwealth of Virginia Government records the employee reimbursement of parking
fees to the indirect cost pools. Indirect costs are not claimed to these grants, and therefore this
treatment has no effect in reducing the costs to the Corporation’s grants.

Costs for rent, recycling fees and security services were allocated to the Administrative grant
based on the number of individuals employed by the Commission. The basis for this allocation
is appropriate. However, the Commission allocated the same type costs to the PDAT grants
using two of the same persons already used in the Administrative grant allocation. These
represent a duplication of costs and therefore are also considered unsupported. Additionally,
we noted that the PDAT grants do not include these types of costs in their award budget. As a
result, we have questioned these costs as follows:

             Grant No.     Questioned Questioned Questioned                 Total
                             Rent      Recycling  Security                Questioned
          07PTHVA001         $ 9,168          $25      $635                    $ 9,828
          10PTHVA001             3,475                                           3,475
          Total              $ 12,643         $25      $635                   $13,303

The personnel head count numbers given to the Commonwealth of Virginia’s Finance
Department was provided in error by the Commission.

We found that a procurement fee had been underclaimed by $100 and a journal entry was not
properly supported. According to the Commonwealth of Virginia’s Finance Department, the
underclaimed procurement fee was due to human error.

                    Grant No.                Vendor              Unsupported
                  10PTHVA001            eVA Procurement               ($ 100)
                  08CAHVA001         Journal Entry – Security               5
                  Total                                                ($ 95)

                                                30 
The Commission costs discussed above are summarized in the following table.

                                                         Not
                                                      Allocable        Not
                   Grant No.        Description
                                                          or        Supported
                                                      Budgeted
                 07PTHVA001           Parking             $   94
                 07PTHVA001            Rent                9,168         $9,168
                 07PTHVA001           Security                25             25
                 07PTHVA001          Recycling               635            635
                  Grant Total                             $9,922         $9,828
                 10PTHVA001           Parking             $ 532
                 10PTHVA001            Rent                3,475         $3,475
                                                         Not
                                                      Allocable        Not
                   Grant No.        Description
                                                          or        Supported
                                                      Budgeted
                 10PTHVA001        Underclaimed                           (100)
                  Grant Total                             $4,007         $3,375
                 08CAHVA001          Parking              $8,309
                 08CAHVA001        Journal Entry                             $5
                  Grant Total                             $8,309             $5

Boaz and Ruth

Costs claimed to the Competitive and Formula grants included costs which were not supported
or allocable to the grants:

      06ACHVA001 – $2,529: These were costs claimed for health insurance premiums for
       participants in a separate Boaz and Ruth program unrelated to AmeriCorps.

      06ACHVA001 – $5,832: These were costs claimed which were not properly supported.
       According to Boaz and Ruth officials, its previous accountant did not have a clear
       understanding of how costs should be allocated to each grant.

MECC

We identified two transactions that were incorrectly claimed to the grant as a Federal share cost
when they should have been claimed as match. As a result, these costs have been questioned
on the basis that they were not included in the grant award budget as a cost to the Federal
government.

      06AFHVA001 – $100: Registration for member’s online training seminar during PY
       2007-2008

                                                31 
          06AFHVA001 – $2,000: Member travel to state AmeriCorps event during PY 2008-2009

The grant award budget, as shown below, does not include costs for member training or
member travel. Rather, it specifies that these costs should be the responsibility of MECC and
claimed as match. As a result, we question these costs totaling $2,100.

UVA

We identified two transactions claimed for health insurance premiums for an AmeriCorps
member after her term of service had expired. Her term of service expired in August 2009, but
the premiums were applicable to coverage in September and October 2009. As a result, we
consider these costs of $223 for each month to be unallocable to the grant.

Costs questioned relating to the subgrantees are summarized and shown below in the table.

                                            Program        Not          Not
         Grant No.           Subgrantee       Year                                  Misclassified
                                                        Allocable    Supported
                               Boaz and      07-08
        06ACHVA001                                         $2,427        $2,144
                                 Ruth
                               Boaz and       08-09
                                                               102         3,688
                                 Ruth
 Boaz and Ruth Total                                       $2,529        $5,832

        06AFHVA001              MECC          07-08                                            $100
                                              08-09                                           2,000
    MECC Total                                                                               $2,100
    06AFHVA001                   UVA          08-09           446
     UVA Total                                               $446
      Subtotal                                             $2,975        $5,832              $2,100
  Administrative Fee                                          157           307
        Total                                              $3,132        $6,139              $2,100

Criteria

Commission

OMB Circular No. A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A. General Principles for Determining Allowable Costs, Section C. Basic Guidelines,
Paragraph 1, Factors Effecting Allowability of Costs, states:

           To be allowable under Federal awards, costs must meet the following general criteria:

              a. Be necessary and reasonable for proper and efficient performance and
                 administration of Federal awards.
              b. Be allocable to Federal awards under the provisions of this Circular.
              c. Be authorized or not prohibited under State or local laws or regulations.


                                                  32 
           d. Conform to any limitations or exclusions set forth in these principles,
              Federal laws, terms and conditions of the Federal award, or other
              governing regulations as to types or amounts of cost items.
           e. Be consistent with policies, regulations, and procedures that apply
              uniformly to both Federal awards and other activities of the governmental
              unit.
           f. Be accorded consistent treatment. A cost may not be assigned to a
              Federal award as a direct cost if any other cost incurred for the same
              purpose in like circumstances has been allocated to the Federal award
              as an indirect cost.
           g. Except as otherwise provided for in this Circular, be determined in
              accordance with generally accepted accounting principles.”
           h. Not be included as a cost or used to meet cost sharing or matching
              requirements of any other Federal award in either the current or a prior
              period, except as specifically provided by Federal law or regulation.
           i. Be the net of all applicable credits.
           j. Be adequately documented.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A. General Principles for Determining Allowable Costs, Section C. Basic Guidelines,
Paragraph 4. Applicable credits, states:

       a. Applicable credits refer to those receipts or reduction of expenditure type
          transactions that offset or reduce expense items allocable to Federal awards
          as direct or indirect costs. Examples of such transactions are: purchase
          discounts, rebates or allowances, recoveries or indemnities on losses,
          insurance refunds or rebates, and adjustments of overpayments or
          erroneous charges. To the extent that such credits accruing to or received by
          the governmental unit relate to allowable costs, they shall be credited to the
          Federal award either as a cost reduction or cash refund, as appropriate.

Subgrantees

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Attachment A. General
Principles, Section A. Basic Considerations, Paragraph 2. Factors Affecting Allowability of
Costs, states:

       To be allowable under an award, costs must meet the following general criteria:

           a. Be reasonable for the performance of the award and be allocable thereto
              under these principles.
           b. Conform to any limitations or exclusions set forth in these principles or in
              the award as to types or amount of cost items.
           c. Be consistent with policies and procedures that apply uniformly to both
              federally-financed and other activities of the organization.
           d. Be accorded consistent treatment.
           e. Be determined in accordance with generally accepted accounting
              principles (GAAP).


                                                33 
               f. Not be included as a cost or used to meet cost sharing or matching
                  requirements of any other federally-financed program in either the
                  current or a prior period.
               g. Be adequately documented.

MECC Grant Award Budget

Member Travel
                                Purpose -Calculation                                   CNCS Share   Grantee     Total Amount
                                                                                                     Share

Member travel to state meeting (1): trip = 770 mi. 4 ds (2 trav ds); 75% State Com.
Mileage: (3 vs: Dir.'s v in C.1.) 770 mi. x $.505 per mi x 2 vs = $778 (in-kind) Per            0       7,526          7,526
diem = 2 ds x 35 mbrs =$3,780. $42 per diem x 2 ds x 35 mbrs = $2940. Parking =
$7 x 2 vs x 2 ds = $28



Member Training
                          Purpose -Calculation -Daily Rate                             CNCS Share   Grantee     Total Amount
                                                                                                     Share

Member Training: Training sessions provided by counseling staff, faculty and
                                                                                                0       1,000          1,000
volunteers. $50 per hour X 20 hours = $1,000- Daily Rate of 400



Scholarships to attend college to support tutoring skills: $500 scholarship X 40
                                                                                                0      20,000         20,000
Members = $20,000- Daily Rate of 10



 
Recommendations:

We recommend the Corporation:

          7a. Ensure that the Commission adheres to claiming only costs found in grant award
              budgets.

          7b. Ensure that the Commission devises a method to capture applicable credits.

          7c. Ensure that the Commission pays closer attention to allocations to the grant.

          7d. Ensure that the Commission works with its subgrantees in identifying corrective
              actions to ensure proper recording of allowable costs.

          7e. Calculate and recover the appropriate amount of disallowed costs based on our
              costs questioned.
 
 
 
 
 
                                                                  34 
Commission’s Response:

The Commission agreed with a portion of the questioned costs, but disagreed with half the
$8,309 costs questioned under parking and the entire amount questioned for member travel at
MECC.

The Commission stated that the parking was included in the budget because it was included in
the lease costs. The Commission further stated that the computation by the auditors was
incorrect because only half of the fee is the agency’s liability as the other half is paid by the
employees. The Commission agreed that the rental, parking and security costs of $9,992 and
$4,007 charged to the PDAT (07PTHVA001 and 10PTHVA001) grants were unallowable
because they were duplicate charges due to a coding error. The Commission indicated that it
adjusted training procedures prior to the start of the engagement. Program director training in
June of each year includes a clear direction for ensuring compliance with fiscal management
requirements. Commission officials also indicated that they are identifying methods for
providing improved financial management direction and evaluation.

In regard to the questioned member travel costs at MECC of $2,000, the Commission stated
that the expenditure had been verbally approved via a phone conversation with the subgrantee
and that the amount did not exceed the 10 percent threshold for transferring funds among
approved direct cost categories.

The Commission is requesting the questioned costs of 50 percent of the $8,309 in parking
expenses and $2000 in travel expenses be omitted from the report.

Auditor’s Comments:

The parking fees were $84 per month per employee. The majority of the computation of
questioned parking costs was computed by multiplying $42 times the number of employees
within the Commission indicating that our analysis had already considered that only half the
parking fees had been claimed to the grant. As a result, the analysis offered by the Commission
is not accurate. The Commission’s position that member travel costs are allowable because
they are allowed to transfer up to 10 percent between approved direct cost categories is correct.
However, we do not believe that member travel or training was an approved direct cost category
because the budget contained $0 under member travel Corporation share. As a result, we
believe our analysis is correct.    
 




                                               35 
    Finding 8 – Member Compliance Requirement Exceptions

    We reviewed 61 member files and timesheets, which resulted in numerous instances of non-
    compliance with grant provisions. Eligibility exceptions that resulted in questioned costs are
    noted above in Finding No. 1. Other exceptions that do not warrant questioned costs are
    summarized below.

                           Criteria   Boaz and Ruth (29     MECC (18        UVA (14       Total (61
     Description            Ref.                                                         sample size)
                                        sample size)       sample size)   sample size)
Service Hours prior to
                              A              11                 1             10              22
Contract Signature
Member enrollment
forms not submitted           B                                               14              14
timely
Pre-service orientation
                              C              27                11                             38
not evident
Mid-term evaluations
                              D              13                 7                             20
not in file

Member contracts
signed by the member,
                              A              1                  5                             6
but not the Program
Director

Lack of evidence that
Prohibited Activities is      A              3                 18                             21
received and reviewed

Drug Free Workplace
Act acknowledgement
                              A                                 1                             1
form is not signed by
the member.

Members not informed
                              A                                 2                             2
of position descriptions
Grievance Procedure
acknowledgement form          A              10                 1                             11
not signed

Member files do not
contain Grant Civil           E              29                18                             47
Rights Policy
Member paid in
                              F              13                 1                             14
unequal installments

    The subgrantees have met all requirements of the grant. As a result, there are numerous areas
    of non-compliance. These instances, however, do not result in questioned costs.




                                                     36 
Criteria

A. 2008 AmeriCorps Special Provisions, Section IV. D.2. Member Contracts, states:

           The grantee must require that each member signs a contract that, at a
           minimum, includes or refers to the following:
              a. Member position description;

                  *       *      *

              e. Prohibited activities, including those specified in the regulations;
              f. Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et
                 seq.);
              g. Suspension and termination rules;
              h. The specific circumstances under which a member may be released for
                 cause;
              i. Grievance procedures; and
              j. Other requirements as established by the grantee.

           The Grantee should ensure that the contract is signed before commencement of service
           so that the members are fully aware of their rights and responsibilities.

B. 2008 AmeriCorps Special Provisions, Section IV.C.1. Notice to the Corporation’s National
   Service Trust, states: The grantee must notify the Corporation’s National Service Trust within
   30 days of a member’s selection for, completion of, suspension from, or release from, a term
   of service.

C. 2008 AmeriCorps Special Provisions, Section IV.D.3 Supervision, states: “The grantee must
   conduct an orientation for members and comply with any pre-service orientation or training
   required by the Corporation.”

D. 2008 AmeriCorps Special Provisions, Section IV.D.4 Performance Reviews, states: “The
   grantee must conduct and keep a record of at least a midterm and end-of-term written
   evaluation of each member’s performance for Full and Half-Time members and an end-of-
   term written evaluation for less than Half-time members.”

E. 2008 AmeriCorps Provisions, Civil Rights/Equal Opportunity Requirements, states:

           As with all federal grant programs, you must ensure that your programs or
           activities, including those of any sub-grantees, will be conducted, and facilities
           operated, in compliance with the applicable civil rights statutes and their
           implementing regulations. You must obtain assurances of such compliance
           prior to extending federal financial assistance to sub-grantees. For civil rights
           purposes, all programs and projects funded or receiving service members
           under the National and Community Service Act, as amended, are programs or
           activities receiving federal financial assistance.




                                                   37 
F. 2008 AmeriCorps Special Provision, Section IV.F.1. Living Allowance Distribution, states:

       Grantees should pay the living allowance in regular increments, such as weekly
       or bi-weekly, paying an increased increment only on the basis of increased
       living expenses such as food, housing, or transportation. Payments should not
       fluctuate based on the number of hours served in a particular time period, and
       must cease when a member concludes a term of service.

Recommendations:

       8. We recommend the Corporation work with the Commission and its subgrantees to
          ensure that the subgrantees understand the test results and why the testing
          produced an exception. More importantly, all parties should be cognizant of these
          requirements going forward.

Commission’s Response:

The Commission indicated that it adjusted training and monitoring procedures prior to the start
of the engagement. Program director training in June of each year includes a clear direction for
ensuring compliance with a wide range of program requirements. The Commission also
reviews and approves program handbooks and member contracts during the pre-contract phase
to ensure that all required elements are included. The Commission also indicated that the
monitoring change required Commission staff to review 100 percent of member files during the
first monitoring visit, ensuring that member-related requirements are adequately covered.

Auditor’s Comments:

The Corporation should review the adjusted training and monitoring procedures and determine
whether they effectively address the instances of noncompliance noted in this finding.

Finding 9 – Subgrantee Administrative Compliance Exceptions

Subgrantees are required to comply with all grant provisions. These include financial reporting,
member contracts, the manner in which living allowances are paid, and matching requirements.
Our tests of these requirements revealed the following:

Late Financial Status Reports: Two subgrantees failed to provide the Commission with timely
financial status reports as shown in the table below.

           Grant No.            Subgrantee           Number of        Range of Days
                                                    Reports Late          Late
         06ACHVA001           Boaz and Ruth           3 out of 3         5 – 28
         06AFHVA001           Boaz and Ruth           2 out of 5         5 – 20
         06AFHVA001              MECC                 3 out of 3         7 – 31




                                              38 
Late PERs: Two subgrantees failed to provide the Commission with timely PER’s as shown
below in the table.

          Grant No.           Subgrantee            Number of      Range of Days
                                                   Reports Late         Late
         06ACHVA001          Boaz and Ruth          15 out of 23      6 – 95
         06AFHVA001          Boaz and Ruth           4 out of 30      12 – 18
         06AFHVA001             MECC                  3 out of 6       1 – 10

The financial activity at Boaz and Ruth is manually created. This is time consuming and has
resulted in the programs inability to prepare these reports in a timely manner.

Member Contracts: Boaz and Ruth member contracts provide for various living allowances for
like or similar position descriptions, as shown in the table below. Members may be paid
different amounts for performing the same services because the amounts in member contracts
are not consistent.

    Program Year         Member Type          Minimum Contract     Maximum Contract
        07-08              Full Time                    $11,200             $18,000
        07-08             Half Time                       5,600              11,200
        07-08            Quarter Time                     2,200               2,800
        08-09              Full Time                      8,550              14,400
        08-09             Half Time                       5,700               7,500

Boaz and Ruth’s PY 2008-2009 AmeriCorps grant application specified that full time members
would receive a minimum of $11,400 in living allowances. However, we found two Boaz and
Ruth member contracts that stated living allowances below the minimum required amounts, as
shown in the table below.

   Program Year       Member Type       Contract Amount      Minimum Amount Required
       08-09            Full Time                 $ 8,550                    $11,400
       09-10            Full Time                  11,000                     11,400

Boaz and Ruth contracts contain inaccurate education award amounts as shown in the table
below.

      Program Year     Member Type        Ed Award Per Contract     Actual Ed Award
          07-08          Full Time                     $2,362.50              $4,725
          07-08         Half Time                       2,350.00               2,362
          08-09        Quarter Time                     1,000.00               1,250

Boaz and Ruth officials stated that living allowances vary and are sometimes below the
minimum required amount because contract amounts are at their discretion. Officials also
indicated that they rely solely on the National Service Trust and have no control over the
amounts given to members for the education awards. As a result, they do not pay close
attention to the education award amounts stipulated in the member contracts.


                                             39 
UVA did not meet its match requirement for the PY 2008-2009 Formula grant. This, however,
did not affect the Commission’s overall match requirements.

                   CNCS Costs                                              Required
                                      Match Claimed     Actual Match
                   Claimed per                                             Match per
                                         per PER         Percentage
                       PER                                                  Budget
                        $ 222,594           $ 461,193        67%             70%

The match shortfall went unnoticed because the Commission was paying close attention to
dollar amounts rather than percentages.

UVA’s claimed match did not reconcile to cost share reports from its accounting system.

                                    Costs per     Costs per Cost          Variance
                   Period
                                     the PER      Share Reports        (Under Report)
                April 2008             $38,070            $37,013              $ 1,057
              September 2008             37,482             45,470              (7,988)
                May 2009                 45,991             45,398                  593
                  TOTAL                                                        $(6,338)

We also noted that an error had been made in the match costs reported for December 2008
wherein fringe benefits were reported as $3,500 but should have been reported as $2,987. This
was due to an input error.

There was no process in place to reconcile costs from the cost share reports to costs reported
on the PER each month.

Criteria

Financial Reporting

45 C.F.R. §2541.41 Financial Reporting, states:

           (4) Due date. When reports are required on a quarterly or semiannual basis,
               they will be due 30 days after the reporting period.

The Office on Volunteerism and Community Service, Virginia AmeriCorps Reporting Schedule
states the following:

          Quarterly fiscal reports are due on, or before, the tenth workday following the
           reporting period.
          Monthly fiscal reports are due on, or before, the sixth workday following the
           reporting period.




                                                  40 
Contracts

The Corporation’s Member Frequently Asked Question Handbook, issued September 6, 2005,
and discussed via conference call on November 18, 2005, covered the following question on
member living allowance amounts:

      10. Can we pay an average living allowance across our members? E.g., if the
          living allowance can be between $11,100 and $22,200, can the average
          stipend be $11,500? Could some AmeriCorps members receive less or more
          than the average through match contributions? Members must receive at
          least the minimum. Also, members performing like service should receive the
          same living allowance. If you intend to vary living allowance amounts, you
          must describe it in your application, including appropriate budget calculations
          and projections. Federal funds can cover only 85% of the minimum living
          allowance.

Our examination of Boaz and Ruth’s budget submitted to the Commission indicated that the
member living allowances were to be equal in amounts.

The 2008 and 2009 AmeriCorps applications provide the minimum and maximum living
allowance amounts for each type of member. Section II of the AmeriCorps application Member
Costs Part A. Living Allowances specifies that full time members will receive a minimum of
$11,400 for their service.

Title 45 from the Code of Federal Regulations §2527.10. What is the amount of an AmeriCorps
education award?, states:
 
        (a) Full-time term of service. The education award for a full-time term of service
            of at least 1,700 hours is $4,725.
        (b) Part-time term of service. The education award for a part-time term of
            service of at least 900 hours is $2,362.50.
        (c) Reduced part-time term of service. The education award for a reduced part-
            time term of service of fewer than 900 hours is –

              (1) An amount equal to the product of --

                     (i) The number of hours of service required to complete the
                          reduced part-time term of service divided by 900; and
                     (ii) 2,362.50; or

              (2) An amount as determined otherwise by the Corporation.




                                               41 
Matching

2008 AmeriCorps General Provisions, Section V.B. Financial Management Standards, states:

       1. General. The grantee must maintain financial management systems that include
          standard accounting practices, sufficient internal controls, a clear audit trail, and
          written cost allocation procedures, as necessary. Financial management systems
          must be capable of distinguishing expenditures attributable to this grant from
          expenditures not attributable to this grant.

Recommendations:

We recommend that the Corporation:

       9a. Ensure that the Commission is aware of all the requirements for administering grants
           and helps it to design procedures and controls that will ensure compliance.

       9b. Ensure that the Commission assists its subgrantees in writing member contracts.

       9c. Ensure that the Commission assists its subgrantees in the reporting of match costs.

Commission’s Response:

The Commission indicated that it adjusted training and monitoring procedures prior to the start
of the engagement. Program director training in June of each year includes a clear direction for
ensuring compliance with a wide range of program requirements. The Commission also
reviews and approves program handbooks and member contracts during the pre-contract
phase, ensuring that issues related to position descriptions, stipends, and education awards are
appropriately and accurately reflected. The Commission also indicated that the monitoring
change required its’ staff to review 100 percent of member files during the first monitoring visit,
allowing staff to address any needed adjustments. In addition, the Commission stated that its
staff will review match costs via monthly PERs and providing feedback to subgrantees.

Auditor’s Comments:

The Corporation should review the adjusted training and monitoring procedures and observe the
Commission’s review of match costs to determine whether they effectively address the finding.

Finding Number 10 – Administrative Subgrantee Staff Timekeeping Weaknesses

We tested payroll costs at the Commission and at the subgrantee level, and identified the
following timekeeping weaknesses at two subgrantees.

Boaz and Ruth

Boaz and Ruth claimed staff personnel costs to the grants based on budgeted percentages of
staff salaries rather than after-the-fact reports indicating actual levels of effort. We found that
there were no job descriptions or employee contracts to alternatively justify the personnel costs
claimed to the grant.

                                                42 
Boaz and Ruth officials believed that an allocation plan was acceptable and precluded them
from completing timesheets. Our discussion with the Commission found, however, that there is
no such plan and that it is currently developing a plan for subgrantees.

MECC

MECC has claimed 100 percent of the Program Director’s wages to the Formula grant. This
corresponds with the award budget and also with their job description. However, we determined
that there was no record of time nor was there any certification prepared by a supervisor for the
effort.

We asked MECC program and Human Resource Department officials, as well as the MECC
Payroll Accountant, about timekeeping policies or certifications that would meet the standards
described under OMB A-21. We found that there does not appear to be any policy on
timekeeping at MECC.

The subgrantees are not tracking their effort in administering the program and therefore may not
be reporting their time and effort accurately.

Criteria

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Attachment A. Selected Items
of Cost, Paragraph 7.m. Compensation for personal services states:

           Support of salaries and wages.

              (1) Charges to awards for salaries and wages, whether treated as direct
                  costs or indirect costs, will be based on documented payrolls approved
                  by a responsible official(s) of the organization. The distribution of salaries
                  and wages to awards must be supported by personnel activity reports, as
                  prescribed in subparagraph (2), except when a substitute system has
                  been approved in writing by the cognizant agency. (See subparagraph
                  E.2 of Attachment A.)

              (2) Reports reflecting the distribution of activity of each employee must be
                  maintained for all staff members (professionals and nonprofessionals)
                  whose compensation is charged, in whole or in part, directly to awards.
                  In addition, in order to support the allocation of indirect costs, such
                  reports must also be maintained for other employees whose work
                  involves two or more functions or activities if a distribution of their
                  compensation between such functions or activities is needed in the
                  determination of the organization's indirect cost rate(s) (e.g., an
                  employee engaged part-time in indirect cost activities and part-time in a
                  direct function). Reports maintained by non-profit organizations to satisfy
                  these requirements must meet the following standards:

                     (a) The reports must reflect an after-the-fact determination of the
                         actual activity of each employee. Budget estimates (i.e.,
                         estimates determined before the services are performed) do not
                         qualify as support for charges to awards.
                                                   43 
                  (b) Each report must account for the total activity for which
                      employees are compensated and which is required in fulfillment
                      of their obligations to the organization.

OMB Circular A-21 Cost Principles for Educational Institutions, Section J. General Provisions for
Selected Items of Cost, Paragraph 10.b. Payroll Distribution, states:

       (1) General Principles.

           (a) The distribution of salaries and wages, whether treated as direct or F&A
               costs, will be based on payrolls documented in accordance with the
               generally accepted practices of colleges and universities. Institutions
               may include in a residual category all activities that are not directly
               charged to sponsored agreements, and that need not be distributed to
               more than one activity for purposes of identifying F&A costs and the
               functions to which they are allocable. The components of the residual
               category are not required to be separately documented.

Recommendation:

We recommend that the Corporation work with the Commission to ensure that:

       10a. Boaz and Ruth establishes employee contracts and job descriptions.

       10b. Its subgrantees develop policies and procedures to complete timesheets or periodic
            certifications to comply with the requirements of the OMB circulars.

Commission’s Response:

The Commission stated that it will emphasize the need for subgrantee staff to track staff time in
compliance with applicable OMB Circular requirements. The Commission stated that it is
requiring timesheets be prepared by subgrantee staff until OnCorps can properly accommodate
program staff timekeeping.

Auditor’s Comments:

The Corporation should review the Commission’s work with the subgrantee and determine
whether the revised procedures effectively address the finding.




                                               44 
                           ApPENDIX A

VIRGINIA OFFICE ON VOLUNTEERISM AND COMMUNITY SERVICE RESPONSE TO
                           AUDIT REPORT
                  COMMONWEALTH of VIRGINIA
                            DEPARTMENT OF SOCIAL SERVICES




                                             April 28, 2011

Stuart Axenfeld
Assistant Inspector General for Audit
Office of the Inspector General
Corporation for National and Community Service
1201 New York Avenue NW
Washington, DC 20525

Dear Mr. Axenfeld:

        Enclosed is the Virginia Office on Volunteerism and Community Service's response to
the draft results of the recently completed audit of its AmeriCorps grants. We appreciate the
assistance provided by Jack Goldberg in your office.

       We look forward to receiving your comments and to final resolution based on the
information provided herein.

                                                  Sincerely,




Enclosures

Copy:

Darian Mims, Auditor
Amanda Healy, AmeriCorps Program Manager
1. R. Simpson, Director for Administration, Virginia Department of Social Services
Jack B. Frazier, Division Director, Community and Volunteer Services, Virginia Department of
                 Social Services




                                 801 East Main Street· Richmond, VA 23219-2901
                        http ://www.dss.virginia.gov· 804-726-7000· TOO 800-828-1120
Finding 1. Commission's Response:         The Commission accepts this Finding and offers corrective
documentation.

1a. Prior to this audit, Commission staff adjusted training and monitoring procedures and content in the
following ways: (1) Program Director training in June of each year includes clear direction for ensuring
compliance with citizenship-related requirements; and (2) at the first monitoring visit with each
program, Commission staff conducts a review of 100% of member files. One element of this review is
confirming that each member has provided the documentation necessary to confirm his or her
citizenship and other participation eligibility.

These changes, now that they are consistently implemented, will prevent a repeat of these incidents of
noncompliance.

1b. Please see Attachment RE 1 B3 and Bl O. Boaz and Ruth requested copies of birth certificates for
the two individuals in question and was told that birth certificates are not released to the public until 100
years after the birth date. As an alternative, the birth dates and Richmond location were verified by the
Director and State Registrar of the Division of Vital Records in the Virginia Department of Health.

Given this documentation from the Virginia Department of Health, the Commission requests that the
amount associated with this Finding, $8101.00, be removed from Commission and subrecipient liability.


Finding 2. Commission's Response: The Commission accepts this Finding, with exceptions.

2a. Adjustments to the OVCS monitoring process over the last few years have already created both
clear communication of needed corrective actions and a succinct method of tracking corrective
actions taken. As a result of this report, the Program Manager and staff are reviewing key aspects of
the OVCS AmeriCorps monitoring process to identify opportunities for further improvements

2b. DSS contracts with Settanni and Company to provide OnCorps, a comprehensive reporting and
data management system. Since Program Year 2009 - 2010, OnCorps has been the official
timekeeping system of record for the Virginia AmeriCorps*State program, and has provided a clear
timekeeping system for use by service members. We note that developing skill in using elements of
OnCorps has been challenging for members, Site Supervisors, and Program Directors, alike. The
Commission requires its AmeriCorps programs to use OnCorps for member timesheets, and is
considering requiring AmeriCorps programs to use OnCorps for stafftimesheets, as well. (Note that
OnCorps is not yet set up to accommodate stafftimesheets.) Programs are strongly discouraged
from using other, supplemental timekeeping methods in addition to OnCorps, because of the
potential re lilt of contradictory or incomplete timesheets. (Programs have sometimes used
supplemental methods such as timesheets or timeclocks for convenience or to meet internal
organizational requirements.) The On Corps timekeeping system not only shows hours served in one
time period it ensures adequate approvals shows totals hours served, and compares the hours yet to
be served with the number of weeks left in each members' contracts. This clearly shows ifand
when a member is getting in trouble with his or her hours served.

2c. Staff will work with MECC to ensure that all members are provided stipends in accord with
applicable federal regulation.

2d. Regarding findings against Boaz and Ruth, and against MECC, the Commission will not dispute or
offer alternative views for any issues prior to 2009 -- 2010. Beginning in 2009 - 2010, OVCS
considered OnCorps the timekeeping system of record, and supports the information contained therein.

                                                                                                           2
Specifically:

Boaz and Ruth - Under Formula 06AFHVAOOI, hours served by members B24 (full time) and B25
(quarter time) are both questioned based on unsigned and inconsistent timesheets. Nonetheless, the
timekeeping system of record, OnCorps, indicates hours served of 1712.5 and 459.50, respectively, each
exceeding the minimum requirement. Further, the Education Award and Accrued Interest Questioned
for member B24 is shown as $12,216. This includes a questioned award of $4725, and interest of
$7491.00. The Commission will follow up with the Trust to confirm and understand this interest
amount.

MECC - MECC notes that in some situations, training occurred and was overseen by the Program
Director prior to a member receiving a service site assignment. In these cases, it was not possible for an
as-yet-unnamed Site Supervisor to sign a timesheet. The Commission requests an opportunity to
confirm that this is not the situation with members cited in this report. Additionally, the timekeeping
system of record, OnCorps, indicates that members MI2, MI3, MIS, and MI6 successfully completed
their contracted service hours.

Given the information provided by the timekeeping system of record, the Commission requests that
amounts related to B24 and B25 ($13,446), and related to MI2, M13, MIS, and M16 (living allowance
and fringe totaling $781.00, and ed awards and interest totaling $8339.00), be removed from
subrecipient and Commission liability. The total proposed reduction in liability is $22,556.00


Finding 3. Commission's Response: The Commission accepts this Finding, with exceptions.

3a. Adjustments to our monitoring process over the last few years have already created both clear
communication of needed corrective actions and improved methods of tracking corrective actions
taken. As a result of this report, the Program Manager and staff are reviewing key aspects of the
OVCS AmeriCorps monitoring process to identify opportunities for further improvements

3b. Prior to this audit, Commission staff adjusted training and monitoring procedures and content in
the following ways: (1) Program Director training in June of each year includes clear direction for
ensuring compliance with term of service and prohibited activity requirements; (2) program
handbooks are reviewed and approved during the precontract phase, including determination that
prohibited activity and term of service requirements are covered in the handbook' and (3 ) at the first
monitoring visit with eacb program Commission staff conducts a review of 100% of member files.
One element of this review is confirming that each member contract c011tains a thorough description
of term of service requirements and of prohibited activities.

 3c. Regarding findings against Boaz and Ruth, the Commission will not dispute or offer alternative
views for any issues prior to 2009 - 2010. Beginning in 2009 - 2010, OVCS considered OnCorps the
timekeeping system of record.

The Commission notes that Boaz and Ruth members B24, B27, and B28 are all shown in OnCorps as
having fuJfilJed their service commitments. Again, the 2009 - 2010 program year was a transitional
year not only in mem bel' and staff familiarity with OnCorps, but also in shared understandings of
activityeliglbility. We understand now that a portion of the 2009 - 2010 activities engaged in by
AmeriCorps members, including telecommuting can be seen as inappropriate. On the other hand, this
program is on the national creative vanguard of trying new program models to maximize success.


                                                                                                          3
Regarding findings related to UVa from program year 2008 - 2009 (preceding OnCorps), please see
Attachment RE 3c U 1. The Commission and UVa note that although subrecipient files contain notes
from a site supervisor questioning member U1 's attendance and hours recorded on her timesheet,
ultimately the site supervisor approved the hours served as recorded. Given this, the Commission and
UVa maintain that the member's hours, as recorded on her timesheets, are appropriate and should be
accepted.

The Commission requests that the amounts associated with B24 (previously addressed), B28
($1000.00), and U1 ($4725.00) in this Finding be removed from Commission and subrecipient liability.
This represents a proposed reduction in liability of $5725.00.


Finding 4. Commission's Response: The Commission accepts this Finding.

4a. Prior to this audit, Commission staff adju ted training al1d monitoring procedures and content in
the following ways: (I) Program Director training in June of each year includes clear direction for
ensuring compliance witl:! start and eod date requirements, as well as procedures for ensuring that
members have ample opportunity for completing their service hours; (2) program handbooks are
reviewed alld approved during the precontract phase, including determination that handbooks
include adequate information about the timing of completion of service hours; (3) at the first
monitoring visit with each pJ'ogram CorumissiolJ staff conducts a review of 100% of member files.
One element of thIs review is ensuring that members have the required information about
completion of service hours, and the opportunity to serve the number of hours expected.

Additionally, beginning in Program Year 2009 - 2010, OnCorps has been the timekeeping system
of record. The Commission requires all AmeriCorps programs to use OnCorps for member
timekeeping, and strongly discourages use of additional or supplementary member timekeeping
methods. The use of OnCorps, and staff access to member records, supports both random
spotchecking and routine desk monitoring of member service documentation.

4b. The Commission will work with the Subrecipients to recover the appropriate amount of
questioned costs.


Finding 5. Commission's Response: The Commission accepts this Finding.

5. Regarding the Commission: The Commission does track costs by cost category on a fiscal year basis
using the Department's financial management system. At the time of the audit these reports were run on
state fiscal year Juty lhrough June. It was also determined that department budgets can be modified at
any point during the fiscal year. As a result oftbe aUdit, a new calendar year budget tracking report has
been developed for the AmeriCorps program budget The Commission's budget will be modified each
year at the time of the final allocation by CNCS and will be tracked in accordance with the budget
submitted through E-grants by cost category.

 Regarding Boaz and Ruth : The accounting staff and procedures ofBoaz and RUtJl have changed
considerably since the period under audit. A fulltime CPA with more than 10 year of experience is now
managing the ol'gaJlization's accounting department. This change will result in consistent implementation of
appropriate accounting procedures.




                                                                                                            4
Finding 6. Commission's Response: The Commission accepts this Finding as it relates MECC
members, and partially accepts this Finding as it relates to Boaz and Ruth members.

6a. Prior to this audit, Commission staff adjusted trai ning and monitoring proced ures and content in
the foll owing ways : (1) Progra m Director training in June of each yea r includ es clear directi on for
en uri ng compliance with release of members due to personal com pelling c ircu msta n ces~ and (2) the
OVCS p Hey gu idance man ual clearly speaks to both what constitutes personal compell ing
circ um tances and the requ irements for documenting its applicability.

6b. As outlined in the AmeriCorps Program Guidance Manual, Program Directors are expected to
request and receive written approval by their Program Officers of personal compelling
circumstances. A Program's failure to document receipt of this prior approval will result in a
Finding of NonCompliance, and possible liability for the education award.

Additional information:

MECC - The Program Director clarified that the Human Resources Director is relatively new to the
Program, not that the MECC AmeriCorps program is relatively new. Further, the Program Director
noted that 'learning curve' issues were applicable to use of On Corps, not to the program overall.

Boaz and Ruth -

Member B-8 - Please see Attachment Re 6, B-8. This includes communication with Jill
Montgomery from September 2010, confirming that the amount in question, $480.00, has been
added to the amended CNCS OIG File Number 08-036 for $36,371.11. Given this, this amount
should not be included in Boaz and Ruth questioned costs or liability calculations.

Member B-17 -This member did not meet the required hours due to the death of his mother. As noted
above, compelling personal circumstances include the death of a part ici pant's fam ily member if this
makes completing a term unreasonably difficult or impossi ble. The Boaz and Ruth Progra m Di rector at
the time received approval from the Com mission Program Officer for this in dividual to be released fro m
service due to compelling personal circumstances, and th us el igi ble for lhe education award.

The Commission will work with the Subrecipients to recover the appropriate amount of questioned
costs. The Commission also requests that the amounts associated with B8 ($480.00) and B 17
($4116.00) in this Finding be removed from Commission and subrecipient liability. This represents a
proposed reduction in liability of $4596.00.


Finding 7. Commission's Response: The Commission accepts portions of this Finding, and takes
exception to other portions.

7a. The Commission disagrees that parking costs were not included in the budget. In fact, parking costs
were included in the budget as part of the DSS build ing lease costs; rent is included in budget submitted.
We do agree that the $42 per employee should have been credited toward the fed eral porti on of the grant.
We therefore dispute 50% of the $8309 questioned which is the difference between the agency's liability
for parkj ng ($84 per person and the $42 collected from employees).

7b. The Commission agrees that the $9.992 for rental costs and other allowable costs in PDAT07 were
duplicated charges due to a coding error.


                                                                                                            5
 The Commission agrees that the $3,907 for rental costs and other allowable costs in PDAT1 0 were
 duplicated charges due to a coding error.

 7c. The Commission agrees to pay closer attention to allocations.

 7d. Prior to this audit, Commission staff adjusted tra ini ng procedures and content in the following ways
 by ensuring that the Program Direc.tor trainin g in June of each year includes clear direction for elements
 related to compliance with fiscal management requirem ents. Addi tionally, as a result of this audit,
 OVCS is identifying methods for providin g improved fin ancial man agement direction and evaluation.

 Re MECC - The Commission disagrees with this portion of the audit finding.

The charge of $2000 to CNCS funds was approved by OVCS via a phone conversation between the
OVCS Director and Sue Graham. This cost was incurred to bring MECC members by bus to an
AmeriCorps event held in Richmond. Using a bus to provide transportation (as compared with
individual cars) minimized the AmeriCorps risk, enhanced esprit de corps, and was cost effective.

Member travel costs were an approved direct cost category in the award budget. According to the
award's terms and conditions, the Commission has authority to transfer funds among approved direct cost
categories as long as the cumulative amount of such transfers does not exceed 10 percent of the total
program budget. The Commission's re-budgeting of member travel c( sts from the State's Share to the
Federal Share in the budget did not exceed 10 percent. Additionally, the Commission's re-budgeting of
member travel from the State Share to the Federal Share did not affect the Commission's matching
obligation as the Commission met its matching requirement.

7e. The Commission will work with the Subrecipients to recover the appropriate amount of
questioned costs. The Commission asserts that 50% of the $8309 questioned in Commission
expenditures, and $2000 travel expense should be excluded from questioned costs and liability
calculations


Finding 8. Commission's Response: The Commission accepts this Finding.

8. Prior to tl1i audit, Commi ssion taf f adjusted train ing and monitoring procedures and content in
the following ways: ( I) Pf(!)gram Director training in June of each year emphasizes myriad program
detai ls, including those outlined here; (2) program handbooks and member co htracts are reviewed
and approved du ring the precontract phase to ensu re that all required elements are included; and 3)
at the fi rst monitoring visit with each program COOlmission staff conducts a review of 100% of
member files. This review includes confirmation that all member-related requirements are
adequately covered.


Finding 9. Commission's Response: The Commission accepts this Finding.

 9a and 9b. Prior to t his audit, Commission staff adjusted training and monitoring procedures and
 content in the fo llow ing ways: ( 1) Program Director training in June of each year includes clear
 d irection for ensuri ng co mpliance w ith a wide range of program requ irements' (2) program
 handbooks and member contracts are among the ubrec ipient program materials th at are reviewed
'an d approved during the precontract pbase, allowing OVCS staff to help ensure that issues related to
 position descriptions sti pe nds, and education awards are appropr iately and accurate ly refl ected· and
 (3) at the first mo nitoring vi it with each program, Commission taff conducts a rev iew of 100% )f

                                                                                                             6
member files, allowing staff to address any needed adjustments.

9c. Commission staff now reviews match reported via PER monthly, by program, and provides
feedback to subrecipients. Please see Attachment Re 9, a sample feedback memo. Further,
subrecipients have been reminded that we track expenditure and documentation of required match.
Staff will make adjustments to CNCS expenditures to ensure that CNCS fund expenditures and grantee
expenditures are aligned with the approved budget. Finally, the OVCS Fiscal Officer is now required
to randomly, by program, reconcile claimed monthly grantee contributions with amounts shown on
programs' PERs. This is part of monthly desk review, and ensures that programs have adequate
documentation to support claimed expenditure of grantee match.


Finding 10. Commission's Response: The Commission accepts this Finding.

lOa. Commission staff will work with Boaz and Ruth to ensure the implementation of acceptable staff
timekeeping practices.

lOb. Commission staff now emphasizes not only the need for subrecipient staff to track staff time in
compliance with the applicable OMB circular, but is also expressing a clear preference for timesheets until
OnCorps is able to accommodate program staff timekeeping. In the absence ofa written alternative and
approved staff timekeeping policy, OVCS will expect OnCorps timekeeping (if available, or timesheets if
OnCorps is not yet available) for all program staff from its 2011 - 2012 subrecipients.




                                                                                                              7
             ApPENDlxB

CORPORATION'S RESPONSE TO AUDIT REPORT
                               NATIONAL&!
                               COMMUNITY
                               SERVICE .........




To:            Stuart Axenfeld, Assistant   spector General for Audit

From:                                                 s Management

Date:

Subject:       Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
               Awarded to the Virginia Office on Volunteerism and Community Service

Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to the Virginia Office on Volunteerism and Community Service
(the Commission). We will work with the Commission to ensure its corrective action plan
adequately addresses the fIndings. We will respond with our management decision after we
receive the final report and the auditor's working papers and have reviewed the Commission's
corrective action plan.

Cc:     William Anderson, Chief Financial Officer
        John Gomperts, Director of AmeriCorps
        Wilsie Minor, Acting General Counsel
